 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


 MEDICARE COMPLIANCE REVIEW OF
CHRISTUS HOSPITAL – ST. ELIZABETH
 FOR THE PERIOD JANUARY 1, 2010,
     THROUGH JUNE 30, 2012




   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                     Brian P. Ritchie
                                                Assistant Inspector General

                                                       February 2014
                                                       A-06-13-00020
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                           INTRODUCTION

 Christus Hospital – St. Elizabeth did not fully comply with Medicare requirements for
 billing inpatient short stays, resulting in overpayments of at least $1,319,746 over 2½
 years.


WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. For calendar year (CY) 2011,
Medicare paid hospitals $151 billion, which represents 45 percent of all fee-for-service
payments; therefore, the Office of Inspector General must provide continual and adequate
oversight of Medicare payments to hospitals. Using computer matching, data mining, and data
analysis techniques, we identified hospital claims that are at risk for noncompliance with
Medicare billing requirements. For this review we focused on inpatient stays of 1 day or less
(short stays). Our previous work at other hospitals found that a significant proportion of
inpatient short stays would more appropriately be billed as outpatient or outpatient with
observation services, which generally result in lower reimbursement than inpatient stays.

OBJECTIVE

Our objective was to determine whether Christus Hospital – St. Elizabeth (the Hospital)
complied with Medicare requirements for billing inpatient short stays.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for beneficiaries after they are discharged from hospitals. Medicare Part B provides
supplementary medical insurance for medical and other health services, including coverage of
hospital outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers
Medicare.

CMS contracts with Medicare Administrative Contractors (MACs) to, among other things,
process and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system. The rates vary according to the diagnosis-related group (DRG) to
which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.




Medicare Compliance Review of Christus Hospital – St. Elizabeth (A-06-13-00020)                   1
Medicare Requirements for Hospital Claims and Payments

Medicare provides Part A coverage for medically ordered inpatient hospital services. Factors to
be considered when making the decision to admit include such things as: (1) the severity of
signs and symptoms exhibited by the patient, (2) the medical predictability of something adverse
happening to the patient, and (3) the need for diagnostic studies that appropriately are Part B
outpatient services to assist in assessing whether the patient should be admitted. 1

CHRISTUS HOSPITAL – ST. ELIZABETH

The Hospital is an accredited, acute care and trauma center located in Beaumont, Texas.
According to CMS’s National Claims History data, Medicare paid the Hospital approximately
$9 million for 2,219 inpatient short-stay claims with dates of service from January 1, 2010,
through June 30, 2012 (audit period).

HOW WE CONDUCTED THIS REVIEW

Our review covered $1,746,427 in Medicare payments to the Hospital for 517 inpatient short-
stay claims with dates of service during the audit period that we identified as potentially at risk
for billing errors. We selected a stratified random sample of 100 claims for review. We
submitted all sampled claims to an independent medical review contractor to determine whether
the services were medically necessary. This report focuses on one selected risk area and does
not represent an overall assessment of all claims submitted by the Hospital for Medicare
reimbursement. Appendix A contains the details of our audit scope and methodology, Appendix
B contains our sample design and methodology, and Appendix C contains our sample results and
estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                                 FINDINGS

The Hospital complied with Medicare inpatient billing requirements for 16 of the 100 short-stay
claims we reviewed. However, the Hospital did not fully comply with Medicare inpatient billing
requirements for the remaining 84 claims.

The Social Security Act (the Act) states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member” (§ 1862(a)(1)(A)).


1
 The Medicare Benefit Policy Manual (Publication No. 100-02), chapter 1, § 10, “Inpatient Hospital Services
Covered Under Part A.”




Medicare Compliance Review of Christus Hospital – St. Elizabeth (A-06-13-00020)                               2
In addition, the Act precludes payment to any provider of services without information necessary
to determine the amount due the provider (§ 1815(a)).

The Act also states that payment for services furnished to an individual may be made only to
providers of services that are eligible and only if, “with respect to inpatient hospital services . . .
which are furnished over a period of time, a physician certifies that such services are required to
be given on an inpatient basis for such individual’s medical treatment . . . .” (§ 1814(a)(3)).

Federal regulations state: “Medicare Part A pays for inpatient hospital services . . . only if a
physician certifies” the need for such services (42 CFR § 424.13(a)).

The Hospital incorrectly billed Medicare Part A for inpatient beneficiary stays that should have
been billed as outpatient or outpatient with observation services (82 errors). Specifically, our
independent medical review contractor determined that inpatient admission was not medically
necessary for these beneficiaries. Additionally, the Hospital incorrectly billed Medicare for a
DRG code that was not supported by the medical record (1 error) and for one claim with a
medical record that did not include a signed and dated physician order (1 error). As a result of
these errors, the Hospital received overpayments of $357,673. 2

Based on our sample results, we estimated that the Hospital received at least $1,319,746 in
overpayments from Medicare. The Hospital did not provide a cause for the overpayments
because it did not agree that it had made these billing errors.

                                          RECOMMENDATIONS

We recommend that the Hospital:

    •    refund to the Medicare contractor $1,319,746 in estimated overpayments for the audit
         period and

    •    strengthen controls to ensure full compliance with Medicare requirements for billing
         short stays.

CHRISTUS HOSPITAL – ST. ELIZABETH COMMENTS

In written comments on our draft report, the Hospital disagreed with our first recommendation.
Specifically, the Hospital disagreed with our findings on 66 of the 84 inpatient short-stay claims
and stated: “Immediately upon learning of the medical contractor’s results, CSE [the Hospital]
had the claims at issue re-reviewed. . . . Independent physician experts concluded that CSE had


2
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the MAC
prior to the issuance of our draft report.




Medicare Compliance Review of Christus Hospital – St. Elizabeth (A-06-13-00020)                                   3
properly billed 66 of the 84 claims that were deemed noncompliant by the OIG.” The Hospital
added that it intends to dispute the claims at issue through the MAC appeals process.

Additionally, the Hospital disagreed with the decision to extrapolate the results. It stated: “As
acknowledged in the draft report, some portion of the alleged overpayment may be properly
billable under Medicare Part B. As such, the amount of the actual overpayment based on the
sample claims reviewed is yet to be determined.” The Hospital requested that we not refer the
estimated overpayment to the MAC for collection. The Hospital stated that an MAC may only
base a notice of overpayment on extrapolated results when “there has been a prior determination
of sustained or high level of payment error or documentation that educational intervention has
failed to correct the payment error.”

Concerning our second recommendation, the Hospital discussed steps it had taken to ensure that
its inpatient short-stay billings are consistent with the existing regulations.

The Hospital’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid. We used an independent medical review contractor to determine whether the claims
met medical necessity requirements. The contractor examined all of the medical records and
documentation originally submitted and carefully considered this information to determine
whether the Hospital billed the inpatient claims according to Medicare requirements. Based on
the contractor’s conclusions, we determined that 82 claims should have been billed as outpatient
or outpatient with observation services, 1 claim was not supported by the medical record, and 1
claim did not include a signed and dated physician order in the medical record.

In response to the Hospital’s concerns regarding its ability to rebill for certain services that were
denied as part of this review, we acknowledge its comments; however, the rebilling issue is
beyond the scope of our audit. After completing our audit, CMS issued the final regulations on
payment policies (78 Fed. Reg. 160 (Aug. 19, 2013)). The Hospital should contact its MAC for
rebilling instructions. In addition, we maintain that the statistical sampling and estimation
techniques planned and used for this review are statistically valid methodologies that we use to
identify overpayments. The statutory provision cited by the Hospital that prohibits the use of
extrapolation applies only to MACs; it does not apply to OIG. Therefore, we continue to
recommend that the Hospital refund to the Medicare program $1,319,746 in estimated
overpayments for the audit period.




Medicare Compliance Review of Christus Hospital – St. Elizabeth (A-06-13-00020)                    4
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

AUDIT SCOPE

Our review covered $1,746,427 in Medicare payments to the Hospital for 517 inpatient short-
stay claims with dates of service from January 1, 2010, through June 30, 2012, that we identified
as potentially at risk for billing errors. We selected a stratified random sample of 100 claims for
review.

We evaluated compliance with selected inpatient short-stay billing requirements and submitted
all sampled claims to an independent medical review contractor to determine whether the
services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to inpatient short
stays because our objective did not require an understanding of all internal controls over the
submission and processing of claims. We established reasonable assurance of the authenticity
and accuracy of the data obtained from the National Claims History file, but we did not assess
the completeness of the file.

This report focuses on one selected risk area and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

Our fieldwork included contacting the Hospital, located in Beaumont, Texas, from January
through July 2013.

AUDIT METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient short-stay claim data from CMS’s National Claims
        History file with dates of service during our audit period;

    •   used computer matching, data mining, and data analysis techniques to identify claims that
        were potentially at risk for noncompliance with selected Medicare requirements;

    •   selected a stratified random sample of 100 claims totaling $444,402 for detailed review
        (Appendix B);

    •   reviewed available data from CMS’s Common Working File for the sampled claims to
        determine whether the claims had been cancelled or adjusted;

    •   reviewed the medical record documentation provided by the Hospital to support the
        sampled claims;




Medicare Compliance Review of Christus Hospital – St. Elizabeth (A-06-13-00020)                    5
    •   used an independent medical review contractor to determine whether the 100 sampled
        claims met medical necessity requirements;

    •   discussed the incorrectly billed claims with Hospital personnel to attempt to determine
        the underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments;

    •   used the results of the sample review to estimate the Medicare overpayments to the Hospital
        (Appendix C); and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Christus Hospital – St. Elizabeth (A-06-13-00020)                   6
                  APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

Population

The population consisted of selected inpatient short stays paid to the Hospital for claims with
dates of service during our audit period.

Sampling Frame

We extracted the Hospital’s inpatient short-stay claim data from CMS’s National Claims History
file. The database contained 2,219 claims with dates of service during our audit period. We
performed data analysis to identify claims we felt were most at risk for improper payment. As a
result, the sampling frame included 517 claims totaling $1,746,427.

Sample Unit

The sample unit was a claim.

Sample Design

We used a stratified random sample. We stratified the sample frame into three strata based on
the payment amounts.

Sample Size

We selected 100 claims for review as follows:

                                                                Claims in Sample    Claims in
    Strata              Payment Amount Range
                                                                     Frame           Sample
        1                $0.00 through $2,563.99                      149               33
        2              $2,564.00 through $4,769.99                    314               33
        3                  $4,770.00 and over                           54              34
                                 TOTAL                                517              100

Source of Random Numbers

We generated the random numbers using the Office of Inspector General, Office of Audit
Services (OIG/OAS) statistical software.

Method of Selecting Sample Units

We consecutively numbered the claims within each stratum. After generating the random
numbers for each stratum, we selected the corresponding frame items.




Medicare Compliance Review of Christus Hospital – St. Elizabeth (A-06-13-00020)                   7
Estimation Methodology

We used the OIG/OAS statistical software for stratified random samples to estimate the total
amount of Medicare overpayments paid to the Hospital during the audit period.




Medicare Compliance Review of Christus Hospital – St. Elizabeth (A-06-13-00020)                8
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                             Sample Results

                                                                       Number of
                                                                       Incorrectly      Value of
                Frame       Value of  Sample            Value of      Billed Claims   Overpayments
  Stratum        Size        Frame     Size             Sample          in Sample      in Sample
     1           149         $290,365    33               $68,592           28           $57,099
     2           314        1,042,068    33               106,878           28            88,989
     3            54          413,994    34               268,932           28           211,585
   Total         517       $1,746,427   100              $444,402           84          $357,673

                                     Estimated Overpayments
                      (Limits Calculated for a 90-Percent Confidence Interval)

                                   Point Estimate             $1,440,602
                                   Lower Limit                $1,319,746
                                   Upper Limit                $1,561,459




Medicare Compliance Review of Christus Hospital – St. Elizabeth (A-06-13-00020)                      9
         APPENDIX D: CHRISTUSHOSPITAL-ST. ELIZABETH COMMENTS 





                     .r~


                           CHRI~!lJS
                         Healtl4.

            January 8, 2014

            Patricia Wheeler
            Regional Inspector General for Audit Services
            Office of Audit Services, Region VI
            1100 Commerce Street, Room 623
            Dallas, Texas 75242

            Re: 	     DRAFT - Medicare Compliance Review of CHRISTUS St. Elizabeth for the Period
                      January 1, 2010 through June 30, 2012. (Report Number: A-06-13-00020)

            Dear Ms. Wheeler:

            I write to respond to the Office of Inspector General (OIG} draft report t itled: Medicare
            Compliance Review of CNRISTUS St. EliztJ/l(-!lll for the Period J81?1J<Jry 1, 2010, t11rough June
            30, 2012. CHRISTLJS St. Elizabeth (CSE) appreciates the opportunity to comment on the OIG's
            draft report. We are committed to complying with all regulaiions and standards governing
            federal hea lth care programs and welcome the opportunity to comment on the report and
            embrace opportunities to improve our programs in order to minimize the risk of non-compliant
            claims .

            Background:

            OIG conducted a national initiative focused on certain risk areas for hospitals across the
            country. CSE was not selected for review based on any improper billing or compliance
            practices. The OIG's national initiative has resulted in the plrblicatiOn of Med icare Compliance
            reports for nea rly 70 hospitals across the country.

            W ith regard to CSE , the OIG focused its review on the Medicare requirements for billing
            inpatient short-stays. The audit covered 517 inpat ient short-stay claims ($1, 746,427 in Medicare
            payments) which the OIG had identified as potentially at risk f or billing errors. The OIG drew a
            sample of those claims (100) 1 and re tained a medical review contractor to determine whether
            the services for those claims where medically necessary.

            OIG Findirrgs:

            The OIG d raft report found that CSE complied with Medicare inpatient-billing req uirements for
            16 of the 100 short-stay claims reviewed. It furt her concluded that CSE did not fully comply with
            Medicare inpatient-billing requirements for the remaining 04 claims because it incorrectly billed

            1 The draft repofl does not in(hcatc, 1\ow the OIG identi fied ce1
                                                                             1ain c laims to be •·at risk for billing errors." The lack of
            such information prevents CSE from adequately analyzing the sampling methodology used in this case .



            919 Hidden Hidge Drive        I Irving, TX I 75038




.Medicare Compliance Review ojChristus Hospital- St. Elizabeth (A-06-13-00020)                                                               10
              Medicare Part A for inpatient beneficiary stays that should have been billed as outpatient or
              outpatient with observation services .

              Based on these fi ndings, the OIG concluded that CSE received an overpayment of $357,673 .
              However, the OIG specifically acknowledged that the hospital may be able to bill Medicare Part
              B for all services that would have been reasonable and necessary had the beneficiary been
              treated as an outpatient. ThliS, the actual amount of overpayment is yet to be determined.

              As will be discussed in t he section to follow, the uncertainty of the overpayment is relevant
              because the O IG findings include an extrapolated damages calculation of $1,319,746.

              CSE Response to OIG Findings:

              CSE does not agree with all of the OIG's findings. Immediately upon learning of the medrcal
              review contractor's results, CSE had the claims at issue re-reviewed by an independent,
              nationally recog nized consultant which is made up of physician reviewers who are expert in
              Med icare ru les and regulations. These independent physician experts concluded that CSE had
              properly billed 66 of the 84 claims th at were deemed noncompliant by the OIG. Consistent with
              those findings, CSE maintains that only 18 of the 100 claims reviewed were improperly billed.

              CSE will refund the overpayment d ue on the Medicare Part A claims; and, to the extent
              possible, it will re-submit the 18 claims for payment under Medicare Part B. With regard to the
              remaining 66 claims, CSE requests that the OIG reconsider those findings for the reaso ns set
              forth below.

              According to the CSE experts, the government's medical review contractor's process appears
              inconsistent with Generally Accepted Government Auditing standards. Most notably, CSE's
              consultant identified a pattern of inconsistency in the application of the Medic<~re billing
              standards. Specifically, the Hospital's expert reviewers identified claims with similar patient
              histories which h<~d inconsistent finding s--i.e., some claims were found to be properly payable
             while ot11ers were not. Further, there may have been instances wh ere the governm ent's
             reviewers substituted their judgment for the real time judgment of the p11ysician caring for the
             patient, even though the medical documentation did not support it. Finally , there appear to be
             instances where the government's reviewers stated th<lt the record lacked proper orders when
             in fact thG orders did exist.

             As noted in earlier correspondence with the audit team, CSE welcomes the opportunity to meet
             and discuss each of the Issues listed above . To the extent that is not possible, and the OIG draft
             findings become final. CSE intends to dispute the claims through the Medicare Administrative
             Contractor (MAC) appeal process.

             Finally, CSE requests that the OIG reconsider its darnagos calcu lation based on extrapolut ion.
             As acknowledged in the draft report , some portion of the alleged overpaymen t may be properly
             billable under Medicare Part B. Further, as noted above, some of the denied claims are, in fact.
             properly payable. As such, the amount of the actual overpayment based on the sample claims



             919 Hidden Ridge Drive I Irving, TX I 75038




lvfedicare Compliance Review ofChristus Hospital - St. Elizabeth (A-06-13-00020)                                   11
              reviewed is yet to be determined. Extrapolating from a sample with such uncertainty is not
              appropriate.

              To the extent that the OIG determines to include the extrapolated damages amount in its final
              report, CSE requests that the extrapolated damages calculations not be referred to the MAC for
              collection. A MAC may only base a notice of overpayment on extrapolated damages where
              there has been a prior determination of sustained or high level of payment error or
              documentation that educational intervention has failed to correct the payment error. 2 In this
              case, there has been no such finding .

              CSE Controls to Ensure Med ica re Compliance:

              CSE is comm itted to taking the steps necessary to ensure that its inpatient short stay billings
              are consistent with the existing regulations. To that end, CSE has put in place the procedures
              discussed below.

              All patients are screened by the Patient Intake Center (PIC) upon admission and prior to bed
              assignment. The PIC is comprised of registered nurses who work unde r the g uidance of Case
              Management. The PIC is available 24 hours a day, seven days a week and uses the lnterQual
              and Milliman screening tools. Additionally, a hospital billing check is in place to stop any
              Medicare short-stays from being billed without first having been subjected to a review for
              medica l necessity. If upon screening, the case meets inpatient criteria, Case Management will
              approve it for billing . If it does not. Case Management will exclude the inpatient charges from
              the bill.

             The hospital has also contracted with a nationally known consultant to assist Case Management
             and our physicians with appropriate level of care determinations. The consultant is available to
             CSE at any point in the process (pre, during, and post hospitalization) and provides physician
             level medical necessity guidance.

             Thank you for allowing us to respond to the draft report . CSE recognizes Its obligations to
             ensure that proper billing safeguards are in place and appreciates the opportunity to learn from
             the issues highlighted by this review.



             Sincerely,         d        I
                 ·-<./ v11 _,,.
              '-~I'()- t/ c_>~r-             -----­
                 '           ~\.__ 

             JotiFinley, Esq. , MPH
             VP, Corporate Compliance and Privacy
             CHRISTUS Health




             'See 42 U.S.C. §1395ddd ((}(3); Ptograrn Integrity Manual Chapter 8 §8.4.1.2- l'he Purpose of Statistical Sampling.

             1)19 ~tidden 1\ idge Dri ve 1 Irvine, TX I 750.3 8




lvfedicare Compliance Review ofChristus Hospital - St. Elizabeth (A-06-13-00020)                                                   12
